                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A11090063                                                                      Page 1 of 1



                  NSF OIG received an allegation that the two funded NSF proposals 1 of a Subject2
         contained plagiarized text. During our inquiry, the Subject claimed he paraphrased and
         prominently referenced sources to support the text. However, the identified text was not
         demarcated by quotation marks or indentation. The Subject claimed other identified text
         pertained to common term definitions. We referred the matter to the institution. 3 The institution
         inquiry opinioned that the copied text pertained to general definitions but we disagreed as the
         other sources pointed out by the Subject had only small segments of some exact wording. The
         institution inquiry determined the Subject intentionally committed plagiarism but concluded an
         investigation was not warranted as the Subject subsequently obtained employment at another
         institution. 4 The institution issued a letter of reprimand to the Subject.

                 We conducted our own investigation and agreed with the institution's fmdings that the
         Subject plagiarized but disagreed on the level of intent. Based on the preponderance of the
         evidence, we found that the Subject knowingly plagiarized, a significant departure from accepted
         practices. In our Report of Investigation (ROI), we recommended that for one year, NSF require
         certifications for all proposals or documents submitted by the Subject to NSF and the Subject to
         complete a course in the responsible conduct of research. NSF concurred with our
         recommendations and despite an appeal from the Subject, issued a fmal determination of
         research misconduct with the recommended actions.

                 The Subject's change of institution led to incorrect charges to the NSF awards and we
         identified a total of$63,235 in award funds that were returned and de-obligated. This memo, the
         attached ROI and the letters from the Office of the Deputy Director on the notice of research
         misconduct determination and the final notice constitute the case closeout. Accordingly, this case
         is closed.




         1




         2


         3
         4




NSF OIG Form 2 (11102)
SENSITIVE                                                                                SENSITIVE




       National Science Foundation
       ·Office of Inspector General




                  Report of Investigation
                 Case Number A11090063
                          September 4, 2013


                        This Report of Investigation is provided to you
                                 FOR OFFICIAL USE ONLY.
  It contains protected personal information, the unauthorized disclosure of which may result in
  personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
  disclosed within NSF only to individuals who must have knowledge of its contents to
 ·facilitate NSF'-s assessment--and- resolution ofthis-matter;-Tbisreport may be disclosed
  outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
  552a. Please take appropriate precautions handling this report of investigation.

                                                                                NSF OIG For'm 22b (1113)
SENSITIVE                                                                           SENSITIVE


                                     Executive Summary


Allegation:   Plagiarism of text from 12 Sources into two NSF awarded grants proposals.

OIG Inquiry: We identified two awarded proposals with 51 lines allegedly plagiarized from 12
             Sources. We contacted the Subject, but his explanations did not resolve the
             matter.

University Inquiry and Action:
              The Inquiry Team determined, based on the preponderance of the evidence, that
              the Subject intentionally committed plagiarism in two awarded NSF proposals,
              which constituted a significant departure from accepted practices of the research
              community. However, the Inquiry Team concluded an investigation was not
              warranted. The University issued a letter of reprimand to the Subject. The
              Subject obtained employment at another institution.

OIG Investigation:
             The Subject disputed most of the allegations of plagiarism. He claimed that the
             specified text was a term definition commonly used and that either the sources
             have been referenced or were not the actual sources used. However, the specified
             text was often copied verbatim with minor word omissions or substitutions.
             Consequently, we found a total of 44.5 lines in the two awards and one proposal
             that were not appropriately demarcated or cited.

OIG Assessment:
                  •   The Act: The Subject committed plagiarism in two awarded proposals and
                      one declined proposal which contain a total of 44.5 undistinguished lines
                      and 5 embedded references plagiarized from 10 sources.
                  •   Intent: The Subject acted knowingly.
                  •   Standard of Proof: A preponderance of evidence supports the conclusion
                      that the Subject knowingly committed plagiarism.
                  •   Significant Departure: The Subject's plagiarism represents a significant
                      departure from accepted practices.
                  •   Pattern: Plagiarism was found in two awarded proposals and one
                      declined proposal.

OIG Recommends:
             • Make a finding of research misconduct.
             • Send a letter of reprimand.
             • Require certification of responsible conduct of research training within
                one year of NSF's finding.
             • Require certifications for a period of one year.
             • Bar the Subject from participating as a peer reviewer, advisor, or
                consultant for NSF for a period of one year.
SENSITNE                                                                                SENSITNE


                                                     OIG's Inquiry

         We identified potential plagiarism in two funded NSF proposals (Award 1 and Award
2) 1• Award 1 contained 36 lines and 5 embedded references allegedly plagiarized from 8
sources. 2 Award 2 contained 15 lines allegedly plagiarized from 4 sources. 3 We wrote 4 to the
PI 5 (the Subject) asking for his explanation regarding the copied text in Awards 1 and 2. We
wrote 6 a similar letter to the co-PI 7 of Award 1. We also determined that the Subject submitted
another proposal, Proposal1, 8 which was declined. The content of Award 1 almost completely
overlapped with Proposal 1 and contained the identical copied text and embedded references.
Because of this, we did not include Proposal1 in the Inquiry letters.

         The Subject's response 9 did not dispel all of the allegations. In his response, the Subject
routinely stated he paraphrased and prominently referenced sources to support the text.
However, the identified text was copied almost verbatim from the source, occasionally omitting
or changing a word. The Subject deemed that such changes obviated the use of quotation marks.
He pointed out other articles or sites that had some exact or similar wording but did not
adequately explain why the identified text in his awards contained a large block of verbatim text
without proper attribution. For sources A, G, H, I and J, the Subject stated he never read the
source until we presented to him. Although the sources B, C, D, F, K and L were cited in
Awards 1 and 2, the copied text was not appropriately demarcated with quotation marks, thus
failing to differentiate the words of others from his own. The embedded references were located
in the same positions in the copied text as in sources D and F but renumbered in Award 1 to
follow the award's reference list.

       Upon further analysis, the identified text in A1 (2.5 lines), G 1 (2 lines) and I1 (2 lines)
were removed from further consideration along with sources G and I. The identified text in A1
and G 1 was a definition of a term 10 that was commonly used in the literature. The Subject
claimed the text in sources H, E, I and J denoted the widely used definition for another term 11
and that instead of citing sources E or J, he instead cited other references. 12 However, the text in

1
    Tab 1, Award 1:
                                                                                           The award
was annotated to display the alleged plagiarism.
Tab 2, Award 2:
                                                                                  The award was
annotated to display the alleged plagiarism.
2
  Tab 3: Copied Source Documents A-H.
3
  Tab 4: Copied Source Documents I-L.
4
  Tab 5: OIG Inquiry Letter to the Subject.
5


6
    Tab 6: OIG Inquiry Letter to co-PI of Award 1.
7
8
    Tab 7, Proposal!:
                                                                                    The proposal was
annotated to display the alleged plagiarism.
9
   Tab 8: Response from Subject.
10
   Definition for the term:
11
   Definition for the term:
12
   Reference # in Award 1 and reference # in Article 2, respectively.

                                                           2
SENSITIVE                                                                                     SENSITIVE


A ward 1 matched source E and the text in Award 2 matched source J and both were not found in
the cited references. The text I1 for Award 2 and the source I were removed from further
consideration as it was found to be a commonly used definition of the term.

           The tables below summarize the alleged plagiarism in Awards 1 and 2 from Sources A-J.

               Section                                            Award 1                    Source
A ward 1, Specific Aims and                         2 lines                             A (review article)
Background
Award 1, Specific Aims and Research                 2 lines                             B (article)
Design & Methods
Award 1, Background                                 2 lines                             C (article)
Award 1, Background and                             16 lines, 4 embedded references     D (review article)
Limitations & alternative strategies
Award 1, Background                                 3 lines                             E (article)
A ward 1, Background                                4 lines, 1 embedded reference       F (review article)
Award 1, Background                                 2.5 lines                           H (review article)
Total Unique Lines (Award 1):                       31.5 lines, 5 embedded references

               Section                                            Award2                      Source
Award 2, Introduction                               7 lines                             J (website)
Award 2, Research Thrusts                           4lines                              K (article)
A ward 2, Research Thrusts                          2lines                              L (protocol report)
Total Unique Lines (Award 2):                       13lines

        Thus, a total of 31.5 plagiarized lines and 5 embedded references were identified in
Award 1 and a total of 13 plagiarized lines were identified in Award 2. Based on the Subject's
                               .
overa11 responses an d our review,                       .    . . to th e u mvers1ty.
                                    we re £erred 13 th e mvest1gatwn         . . 14

        In the co-PI's response, 15 he stated that he did not author any portions of the identified
text in question for Award 1. The Subject also did not state or imply that the co-PI authored any
of the identified text in question. We therefore decided not to include the co-PI in our referral of
investigation to the University.

                                                 University's Inquiry

       In accordance with the University's research misconduct policies and procedures, 16 the
University conducted an Inquiry into the alleged plagiarism. The Inquiry Team examined
Awards 1 and 2, source documents A-L, OIG's Inquiry letter and the Subject's response. The
University produced an Inquiry Report 17 with attachrnents. 18 The Inquiry Team categorized the
apparent plagiarism as:

13
     Tab 9: Investigation Referral Letter to University.
14
15
     Tab 10: Response from co-Pl.
16
     Tab 11: University's Policy and Procedures                                   .
17
     Tab 12: University's Inquiry Report.

                                                              3
SENSITIVE                                                                               SENSITIVE



        "1. Text appears to have been copied verbatim and an appropriate citation provided, but
        the copied text was not appropriately demarcated with quotation marks;

        2. Text appears to have been copied verbatim, but no citation was provided; and

        3. Text appears to have been copied verbatim, but either an incorrect or completely
        different citation was provided;

        4. Text appears to have been copied verbatim, but the [Subject] himself indicated the
        material was copied from a source other than the one indicated by the NSF." 19

       Although the University did not formally conduct an investigation, it addressed the
                                                                                              20
elements for determining a finding of research misconduct as outlined in our referral letter.
                                                                                      21
Specifically, the Inquiry Team "determined that [the Subject] committed plagiarism" since
there were:

        "[ s]pecific instances where significant portions of text were copied without appropriate
        attribution were analyzed in detail. One blatant example (D3, D4) was comprised of a
        continuous string of approximately 150 words directly copied from another source. The
        responses or justifications provided by [the Subject] did not dispel the plagiarism
        concerns. Through his own statements, [the Subject] acknowledged that text was copied
        from other sources, and routinely stated he paraphrased and prominently referenced
        sources to support the text. However, the noted text segments were often copied
        verbatim from the source documents, with minor revisions of omitting or changing a few
        words. The copied text was not demarcated with quotation marks and in many cases
                                                  22
        citations were not appropriately noted."

        The Inquiry Team determined the plagiarism, based on the preponderance of the
evidence, constituted a significant departure from accepted practices of the relevant research
community as "[the Subject] disregarded the well established rules concerning the proper use of
                                                                             23
other's words and the attribution of copied texts to their original sources." The Inquiry Team
also determined that "the preponderance of the evidence provided that plagiarism was committed
intentionally by [the Subject]" as "the incidents of plagiarism extend beyond [the Subject] being
careless. The responses from [the Subject] infer that he intentionally included copied text, but he
                                                                                24
did not properly understand the accepted standards for appropriate citations."

       However, the Inquiry Team concluded an investigation was not warranted as it
determined that "although plagiarism is evident, [ ] it did not constitute a breach of scientific


18
   Tab 13: Attachments to University's Inquiry Report.
19
   Tab 12, pg 3.
20
   Tab 9: Investigation Referral Letter to University.
21
   Tab 12, pg 3.
22
   Tab 12, pgs 3-4.
23
   Tab 12, pg 4.
24
   Tab 12, pg 4.

                                                         4
SENSITIVE                                                                                SENSITIVE


integrity and should therefore have no substantive impact on [the Subject]'s research record." 25
In lieu of an Investigation, the Inquiry Team recommended for the Subject: a letter of reprimand,
a requirement to teach a one semester course to graduate students on the responsible conduct of
research, an assigned faculty member to counsel the Subject in ethical and professional standards
for a year and for the Subject to provide certifications for any proposals he submits as a PI or co-
PI for the next two years.

                           Subject's Response to University's Inquiry Report

         The University provided the Subject with the Inquiry Report and allowed him the
opportunity to respond. In his response 26 to the Inquiry Report, he repeated comparable
assertions as in his response 27 to our Inquiry Letter. He attributed the identified plagiarized text
as either general, widely-used definitions of technical terms or standard technical procedures and
thus were not a significant departure from accepted practices of the relevant research community.
He contended that sources A, G, H, I and J were publications that he had never read or seen and
that those sources also did not use appropriate citations or quotation marks. He contended that
sources B, C, D, F, K and L were appropriately cited and that instead of using source E, he cited
                              28
another similar publication that had the same last author. He asserted that "citations and
attributions [were] all diligently provided in [the] proposals" and that "[i]ntentional copying by
itself is not intentional plagiarism" as he "had no intention to take any credit from any one" and
"only modified the texts from [the] cited references, in order to provide more accurate
meanings". 29

                                          University's Adjudication

        The Vice Chancellor for Research (VCR) 30 of the University issued a research
misconduct letter 31 of reprimand to the Subject stating that the allegation of plagiarism "fell
within the definition of research misconduct" and "the allegation had substance but did not
warrant a Full Investigation." The letter also stated the same findings as in the Inquiry Team's
Report:

           "[a] significant departure from accepted practices of the relevant research community
           was evident in the two grant proposals submitted by [the Subject] to the NSF"; and

           "that copying significant portions of text without adequate attribution was committed
           intentionally and unquestionably constituted plagiarism. In addition, [ ] the allegation
           was proven by a preponderance of the evidence"; and




25
   Tab 12, pg 5.
26
   Tab 14: Subject's Response to the University Inquiry Report.
27
   Tab 8: Response from Subject.
28
   Reference # in A ward 1.
29
   Tab 14, pg 8.
30
31
     Tab 15: Letter from VCR to Subject

                                                         5
SENSITIVE                                                                                SENSITIVE


        "although plagiarism was evident, [ ] it did not constitute a breach of scientific integrity
        and should therefore have no substantive impact on [the Subject]'s research record." 32

       The VCR noted that documentation of the Inquiry would be maintained for a period of
seven years.

                                    OIG's Investigation and Assessment

       We assessed the University's Inquiry Report for completeness and accuracy and asked 33
the Subject if he had additional comments for us on the Inquiry Report. The Subject stated 34 he
had no further comments.

        We determined the University terminated its process at the inquiry phase because the
Subject departed the University for a position 35 at another institution. We determined that the
Inquiry Team's findings established that the Subject committed plagiarism. However we
disagreed with the statement that "[i]n 11 of the 12 instances the copied material pertained to
general definitions, and in 1 of 12 it pertained to standard technical procedures. In all cases the
wording of the copied text is similar to that which is widely used and current in the field." 36 The
12 instances refer to sources A through L. We determinedthe text from sources G and I (and the
identified text in AI for Award 1) pertained to common definitions and therefore were removed
from further consideration. We deemed that general definitions cannot be attributed to the other
10 instances, sources A (identified text A2) through F, H, J, K a11d Las the other articles or sites
pointed out by the Subject had only similar wording or small segments of some exact wording.
We deemed that denoting the copied material as a description of a standard technical procedure
does not adequately excuse the identified plagiarized text L1 in Award 2 from source L.

        We disagreed with the Inquiry Team's and the VCR's determination that the Subject's
evident plagiarism did not constitute a breach of scientific integrity. The University's policy
states "Research Misconduct (or "Misconduct") includes fabrication, falsification, or plagiarism
in proposing, performing, or reviewing research, or in reporting research results" and
"Plagiarism is the appropriation of another person's ideas, processes, results, or words without
                                                                       38
giving appropriate credit." 37 These definitions match those ofNSF.

        In the Subject's response 39 to the University's Inquiry Report, he questioned the
standards in the appropriate use of quotations, citations and references. He also questioned the
definition of intentional plagiarism and the determination of acceptable practices of the research

32
   Tab 15, pg 1.
33
   Tab 16: OIG Letter to Subject.
34
   Tab 17: Response from Subject.
35




36
   Tab 12, pg 4.
37
   Tab 11, pg 3.
38
   45 C.F.R. § 689.1.
39
   Tab 14: Subject's Response to the University Inquiry Report.

                                                         6
SENSITIVE                                                                             SENSITIVE


community. Therefore in the course of our investigation, we examined the Subject's ethics
training, education/employment records and publication history.

        The Subject stated that he has "voluntar[il]y taught ethics courses for the [ ] Department
since 2009." 40 The University's Research Integrity Officer (RI0) 41 confirmed that the Subject
"taught two hours of ethics per year from 2009 until2012" 42 in a course 43 for the Department44
which was required to be attended by all faculty members and students on an annual basis. In
addition, the state "require[ d] that all University employees complete general ethics training on
an annual basis." 45

         A review ofhis biographical sketch that was included in Award 1, 46 revealed that
although he received his bachelor's degree in a foreign country, he conducted Ph.D. training and
obtained a Ph.D. in 2005 at a U.S. institution, 47 was an exchange student at another U.S.
institution48 and maintained an Assistant Professor position at the University before leaving for
                                                  49
another position at a different U.S. institution.

        We examined ten peer-reviewed publications that were listed in the annual reports of
Awards 1 or 2 and did not find any plagiarism. To determine the standards of the Subject's
                                                            5°
research community, we reviewed the policies of a journal in which the Subject has published
three articles 5 1 and served as the corresponding author. The journal's instructions to authors
stipulate that:

           "



                                                                 52
                                                            ."

40
     Tab 14, pg 10.
41


42
     Tab 18, pg 1.
43
     The course was entitled
44
45
     Tab 18, pg 1.
46
     Tab 1, pgs 25-26.
47
48
49
     See footnote #35.
50
51
     Article 1:


Article 2:


Article 3:


52
     Tab 20:

                                                 7
SENSITIVE                                                                                SENSITIVE


         The Subject reproduced verbatim sequences of plagiarized text without quotation marks.
Although the sources B, C, D, F, K and L were cited in Awards 1 and 2, the copied text was not
appropriately demarcated with quotation marks and while he slightly changed some text, he
failed to differentiate the words of others from his own. In consideration of the Subject's
education, ethics training history, publication record and faculty appointments at U.S.
institutions, we consider the Subject's actions to constitute a significant departure from the
accepted practices of the U.S. research community. We found that the Subject did not properly
apply quotation, citation and reference practices to give appropriate credit for the words of
others.                                                   ·

           In the Subject's response 53 to the University's Inquiry Report, he did acknowledge:

           "I should be very careful with using quotations, paraphrasing cited sentences, and
           where in the sentence to put the citation." 54 and

           "Looking forward, I will use this inquiry process as a good lesson. I will exert due
           diligence in searching and eliminating text similarities. I will be very careful on using
           quotation marks and paraphrasing cited sentences. I will begin to use the text similarity
           search software to pre-scan my proposals." 55

       The Subject also volunteered to provide a written certification that "any grant proposals I
submit do not contain any plagiarized content or otherwise misappropriated material." 56

       A finding of research misconduct by NSF requires that ( 1) there be a significant departure
from accepted practices of the relevant research community, (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proven by a
preponderance of the evidence. 57

                                                       The Acts

        We found that the subject copied 31.5 lines and 5 embedded references from 7 sources
into Award 1. We also note that this same text was plagiarized into Proposal!. We found that
the Subject copied 13 lines from 3 sources in Award 2. In total, we found 44.5 lines of
undistinguished text with 5 embedded references from 10 sources. We conclude the Subject's
actions constitute plagiarism under NSF's definition. We also conclude the Subject's actions
constitute a significant departure from accepted practices of the research community.



       As the embedded references were located in the same position in the plagiarized text as in
the sources D and F but renumbered to follow the proposal's reference list, this supported a

53
     Tab 14: Subject's Response to the University Inquiry Report.
54
     Tab 14, pg 1. Bold emphasis was added by the Subject.
55
     Tab 14, pg 11.
56
     Tab 14, pg 11.
57
     45 C.F.R. § 689.2(c).

                                                           8
SENSITIVE                                                                                   SENSITIVE


knowing level of intent. The use of parentheses with the exact enclosed words located in the
exact same part of the sentence as in sources C and L also supported a knowing level of intent.
The act of copying text without the appropriate use of quotations, citations and references is a
knowing act. Given his education/training background, publication history and faculty position,
we expect the Subject would be fully aware of scholarly standards in submitting proposals to the
NSF. We conclude that the Subject knowingly included plagiarized text in his proposals.

                                            Standard o(Proo(

        The preponderance of the evidence supports that the Subject knowingly plagiarized 31.5
lines with 5 embedded references from 7 sources in both Award 1 and Proposal 1 and 13 lines
from 3 sources in Award 2, thereby committing an act of research misconduct. 58

                                   OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider: (1) How serious the misconduct was; (2) The degree to which the misconduct was
knowing, intentional, or reckless; (3) Whether it was an isolated event or part of a pattern;
(4) Whether it had a significant impact on the research record, research subjects, other
researchers, institutions or the public welfare; and (5) Other relevant circumstances. 59

                                                Seriousness

        The Subject's actions are a violation of the standards of scholarship and research ethics
within the research community. The Subject knowingly plagiarized text in two awarded NSF
proposals and one declined NSF proposal. The Subject's lack of understanding of the definition
of plagiarism and improper quotation, citation and reference practices did not diminish the
seriousness of his actions. By including the text composed by others in three proposals, in which
two were awarded, the Subject misrepresented his own efforts to the reviewers. The NSF Grant
Proposal Guide (GPG) states:

           NSF expects strict adherence to the rules of proper scholarship and attribution. The
           responsibility for proper attribution and citation rests with authors of a proposal; all parts
           of the proposal should be prepared with equal care for this concern. Authors other than
           the PI (or any co-PI) should be named and acknowledged. Serious failure to adhere to
           such standards can result in findings of research misconduct. NSF policies and rules on
           research misconduct are discussed in the AAG Chapter VII.C as well as in 45 CFR Part
           689 (GPG section I.D.3).

                                            Pattern o(Behavior

        Plagiarism was found in Proposal 1, Awards 1 and 2. We did not identify any pattern of
plagiarism in the proposals that the Subject subsequently submitted to NSF.


58
     45 C.F.R. § 689.
59
     45 C.F.R. § 689.3(b ).

                                                      9
SENSITIVE                                                                                 SENSITIVE


                                        Impact on the Research Record

        Since the NSF proposals, Awards 1 and 2, were awarded, we conclude that the Subject's
actions did have an impact on the research community. However, we did not find any plagiarism
warranting further review in the ten publications listed in the annual reports for Awards 1 and 2.


                                         Subject's Response to Draft Report

       In the Subject's response 60 to our draft investigation report, 61 he reiterated comments that
                                                                     62
were conveyed in his response to the University's Inquiry Report. We conclude that the
Subject's response does not alter our original determinations and recommendations.



                                               Recommendations

Based on the evidence, OIG recommends NSF take the following actions:

                  •    Send the Subject a letter of reprimand notifying him that NSF has made a
                       finding of research misconduct. 63

                  •    Require the Subject to certify to the Assistant Inspector General for
                       Investigations (AlGI) his completion of a responsible conduct of research
                       training program and provide documentatiorr of the program's content within
                                                 64
                       1 year ofNSF's finding. The instruction should be in an interactive format
                       (e.g., an instructor-led course) and specifically include plagiarism.


For a period of one year immediately following NSF's finding:

                  •    Bar the Subject from participating as a peer reviewer, advisor, or consultant
                                65
                       forNSF.

                  •    Require for each document (proposal, report, etc.) to which the Subject
                       contributes for submission to NSF (directly or through an institution),

                           o the Subject submit a contemporaneous certification to the AlGI that
                             the document does not contain plagiarism, falsification, or
                             fabrication. 66

60
   Tab 21: Response from Subject
61
   Tab 22: Letter to Subject with Draft ROI
62
   See Tab 14.
63
   A Group I action 45 C.F.R 689.3(a)(l)(i).
64
   This action is similar to Group I actions 45 C.F.R. 689.3(a)(l).
65
   A Group III action 45 C.F.R. 689.3(a)(3)(ii).
66
   This action is similar to 45 C.F.R 689.3(a)(l)(iii).

                                                           10
                                     NATIONAL SCIENCE FOUNDATION
                                          4201 WILSON BOULEVARD
                                         ARLINGTON, VIRGINIA 22230




                                                                                FEB z5 Z014
       OFFICE OF THE
         DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




         Re:      Notice of Research Misconduct Determination


Dear

You served as Principal Investigator (PI) on a proposal funded by the National Science
Foundation (NSF) entitled, "
     " (Award 1). You also setved as PI on an NSF funded proposal entitled "
                                                                                     " (Award
2). As documented in the attached Investigative Report prepared by NSF's Office of Inspector
General (OIG), both proposals contained plagiarized material.

Research Misconduct and Proposed Sanctions

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF ... " 45 CFR 689.l(a). NSF
defmes "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR 689.l(a)(3). A finding of research misconduct
requires that:

          (1) There be a significant departure from accepted practices of the relevant research
              community;
          (2)   Th~    research misconduct be committed intentionally, or knowingly, or recklessly;
                ood                                                                      ·
          (3) The allegation be proven by a preponderance of evidence.
                                                                                             Page2
45 CFR 689.2(c):

  As the NSF OIG concluded, both your Award 1 and Award 2 proposals contained copied
  material. Award 1 contained 31. 5 lines of copied material and five embedded references from
· seven sources. Award 2 contained thirteen lines of copied material from three sources, making a
  total of 44.5 lines and five embedded references copied from ten sources. Notably, the.
  embedded references had been renumbered from the copied text to the proposals. Your
  submission of proposals with copied material constitutes plagiarism and meets the applicable
  definition of"research misconduct" set forth in NSF's regulations.

Pursuant to NSF's regulations, the Foundation must also determine whether to make a .finding of
misconduct based on a preponderance of the evidence. 45 CFR 689.2(c). After reviewing the
OIG's Investigative Report, NSF has determined that, based on a preponderance of the evidence,
your plagiarism was committed knowingly and constituted a significant departure from accepted
practices of the relevant research community. I am, consequently, issuing a finding of research
misconduct against you.

NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
response to a finding of misconduct. 45 CFR 689.3(a). Group I actions include issuing a letter
of reprimand~ conditioning awards on prior approval of particular activities from NSF~ requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR 689.3(a)(l). Group II actions
include award suspension or restrictions on designated activities or expenditures; requiring
special reviews of requests for funding; and requiring correction to the research record. 45 CFR
689.3(a)(2). Group III actions include suspension or termination of awards~ prohibitions on
participation as NSF reviewers, advisors or consultants; and debarment or suspension from
participation in NSF programs. 45 CFR 689.3(a)(3).

 In determining the severity of the sanction to impose for research misconduct, I have considered
 the seriousness of the misconduct and our determination that it was committed knowingly. I
 have also considered other relevant circumstances. 45 CFR 689.3(b).

 After assessing the relevant facts and circumstances of this case a.Ud NSF's regulations, I am
 taking the following actions:

     •   Within one year of the date of this notice, you must complete a responsible conduct of
         research training program, for which the instruction should be an interactive format (e.g.,
         an instructor-led course) and which specifically includes plagiarism. You must provide
         documentation of the program's content and proof of its completion to the OIG; and
     •   For a period of one year from the date of this notice, you are required to submit
         certifications to the OIG that any proposal or report you submit to NSF as a Principal
         Investigator (PI) or co-PI does not contain plagiarized, falsified or fabricated material.
                                                                                            Page 3

All certifications and assurances should be submitted in writing to NSF's Office of Inspector
General, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington, ·
Virginia, 22230.                                   '

Procedures Governing Appeals

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
finding, in writing, to the Director of the Foundation. 45 CFR 689.10(a). Any appeal should be
addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, the
decision on the finding of research misconduct will become finaL

For your information, we are attaching a copy of the applicable regulations. Should you have
any questions about the foregoing, please contact Peggy Hoyle, Deputy General Counsel, at ·
(703) 292-8060.



                                                     Sincerely,



                                                     Fae Korsmo
                                                     Senior Advisor to the Director.



Enclosures:
Investigative Report
45 CFR Part 689
                                     NATIONAL SCIENCE FOUNDATION
                                          4201 WILSON BOULEVARD
                                         ARLINGTON, VIRGINIA 22230




                                                                                  APR Z9 Z014
     OFFICE OF THE
    DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




         Re:    Research Misconduct Final Determination


Dear

On February 25,2014, the National Science Foundation (NSF) issued you a Notice ofResearch
Misconduct Determination (the Notice). As reflected in the Notice, you served as Principal
Investigator on two proposals for funding to the NSF, and as documented in the Investigative
Report prepared by NSF's Office oflnspector General _(OIG), both proposals contained
plagiarized material. 1 Following careful review of the OIG report and the evidence, NSF
determined that, based on a preponderance of the evidence, your plagiarism was committed
knowingly and constituted a significant departure from the accepted practices of your research
         •  2
commumty.

Accordingly, NSF took the following actions:

     •   Within one year of the date of the Notice, you must completea responsible conduct of
         research training program, for which the instruction should be an interactive format (e.g.,
         an instructor-led course) and which specifically includes plagiarism. You must provide
         documentation of the program's content and proof of its completion to the OIG; and
     •   For a period of one year from the date of the Notice, you are required to provide
         certifications to the OIG that any proposal or report you submit to NSF as a Principal
         Investigator (PI) or co-PI does not contain plagiarized, falsified or fabricated material.


1
   The proposal from the first award was entitled, "
                " (Award I). The proposal from the second award was entitled "
                                                                     " (Award 2). Award 1 contained 31.5 lines
of copied material and five embedded references from seven sources. Award 2 contained thirteen lines of copied
material from three sources.
2
  45 CFR 6&9.2 (c).
                                                                                              Page2

  On or about March 24, 2014, you filed a timely notice of appeal. In this response, you claimed
  that the OIG Report relied, in several instances, upon "falsified data," in that certain data were
  "selectively omitted." Nevertheless, none of the purported "selective" omissions, even if found,
· adequately explain how the lines of copied text appeared in both proposals without proper
  attribution. In fact, the preponderance of the evidence continues to suggest that this plagiarism
  was committed knowingly and represents a significant departure from the standards of your
  research community.

 I have taken into account the circumstances you cite in your response, including your assertion
 that taking a responsible conduct of research training program will not be meaningful to you. I
 have concluded that NSF's determination that you engaged in research misconduct was
 appropriate, and, in accordance with 45 CFR 689.10, that determination, and the accompanying
 actions, are now fmal. You should proceed to undertake those actions within the tirneframes
 specified.

 Should you have any questions about the foregoing, please contact Peggy Hoyle, Deputy General.
 Counsel, at 703-292-8060.



                                                       Sincerely,



                                                       Cora B. Marrett .
                                                       Deputy Director
